HHS/OIG-Audit--Allopathic Medicine Health Professions Student Loans Program at Boston University, Boston, Massachusetts (A-05-98-00045)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Allopathic Medicine Health Professions Student Loans Program at Boston University,
Boston, Massachusetts, (A-05-98-00045)
October 9, 1998
Complete Text of Report is available in PDF format
(738 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Allopathic Medicine
Health Professions Student Loans (HPSL) Program at Boston University. The HPSL
was implemented through the Public Health Service Act. The Health Resources
and Services Administration (HRSA) has overall management responsibilities for
the program at the Federal level.
We determined that the University was appropriately using HPSL funds to provide
loans to eligible medical students, with the exception of one loan, and was
generally in compliance with regulations concerning the administration of loans.
However, our audit revealed that the University was carrying uncollectible loans
in their accounting records.